          U.S. Department of the Interior
              Office of Inspector General




             Evaluation of
      Office of Insular Affairs
             Oversight of
    Capital Improvement Projects,
       Commonwealth of the Northern
            Mariana Islands

                          Oversight of
                          Saipan Public
                          Health Facility
                          Raises Concerns




Report No. P-GR-NMI-0004-2005   June 2007
                     United States Department of the Interior
                                      Office of Inspector General
                                            Washington, D.C. 20204

                                                                            June 08, 2007


Memorandum

To:            David B. Cohen
               Deputy Assistant Secretary for Insular Affairs

From:          Earl E. Devaney
               Inspector General

Subject:       Evaluation of Office of Insular Affairs Oversight of Capital Improvement
               Projects, Commonwealth of the Northern Mariana Islands
               (Report No. P-GR-NMI-0004-2005)

        Our evaluation of the Commonwealth of the Northern Mariana Islands’ (CNMI)
Saipan Public Health Facility Project (Project) raises serious concerns about the quality
of oversight exercised by your office over CNMI capital improvement projects (CIP) in
general and this Project in particular. Our objective was to evaluate CNMI’s
management of the Project and to identify opportunities for improvement. Because of
serious management deficiencies, however, we also evaluated your office’s oversight of
the Project.

       We undertook our evaluation, in cooperation with the CNMI Office of the Public
Auditor, at the request of the Legislature of CNMI, which was alarmed by the Project’s
cost overruns and delays. The attached report to the CNMI Governor and President of
the CNMI Senate (Appendix 4) identifies the audit objective, scope, methodology, and
management deficiencies, as well as opportunities to significantly improve CNMI’s
contracting performance and results. These opportunities may not be realized, however,
without the active involvement of your office.

        The Office of Insular Affairs (OIA) has stated that CIPs are the “building blocks
for self-sufficiency in the insular areas,” thereby creating a clear nexus between the
success of a CIP and the success of your office in meeting the Secretary’s mandate to
establish sound financial practices, increase economic development, and demonstrate
federal responsiveness in insular area communities. As one of the largest and most
significant CIPs underway in CNMI, the Project merited your close oversight to help
ensure its success. Instead of proactive oversight, however, your office failed to heed
obvious red flags, which indicated serious Project management problems, and to use the
tools at your disposal to keep the Project on target. Specifically:




                                            1
                 First Grant Issued
                  November 1996                       ►Troubled Project History. Since funding was
                                                 initiated 10 years ago (see Figure 1), the $17.6 million
                                                 Project has experienced significant problems as it
   Contract awarded to                           evolved from a hemodialysis center to a state-of-the-art
    A&E firm to start
    design of Project                            health facility. From the outset, CNMI’s Department of
     October 2000                                Public Works staff lacked the experience and expertise
                                                 to contract for and manage a project of this size.
                           Contract awarded      Deficiencies included inadequate evaluations of
                              to builder
                              June 2002
                                                 contract proposals and price negotiations, unsupported
                                                 sole source procurements, and unaddressed contractor
                           Contract awarded      nonperformance. The result:
                           to construction
 Corps issues first of
                           management firm
two reports critical of
       Project             January 2003              ¾ Questionable contractor selection. The best
        March 2003                               qualified firms may not have been selected at the most
Contract awarded to
                                                 favorable prices. For example, the architectural and
project management                               engineering (A&E) contracts were awarded absent any
        firm               Contract awarded to   price or cost analysis.
        June 2003          second A&E firm to
                             redesign Project
                           January 2004              ¾ Excessive costs and duplicative contracts.
                                                 CNMI issued contract modifications, without
        Originally Scheduled Completion
                   August 2004                   competition, for work that was not critical for a fully
                                                 functioning facility. It also contracted with two, rather
Contract awarded to                              than one, A&E firms and with two construction
consultant to analyze                            management firms because in-house expertise was not
 Project delay claim
    December 2004
                                                 available. When the first construction management
                                                 firm failed to comply with its requirement to analyze
                                                 contractor delay claims, CNMI took no action to
                           Corps issues second   recover costs for nonperformance, but instead issued a
                            report critical of
                                 Project         contract to another firm for this work.
                              August 2005
                                                     ¾ Disruptions, unnecessary delays, contractor
            Project Still Not Completed          claims, and ultimately a Project that may not be
                     May 2007                    operable because of the failure to plan for the
                                                 $5 million to $8 million needed annually to operate and
                             Figure 1            maintain the Project.

        ► U.S. Army Corps of Engineers (Corps) Reports. Asked by CNMI to look at
    CNMI’s contracting process, the Corps issued two reports, 1 one in 2003 and another in
    2005, both of which identified serious deficiencies in CNMI’s contract management. The
    2003 report addressed weaknesses in CNMI’s management of the CIP program, including
    the lack of a project team to efficiently administer the program and an experienced legal
    counsel to help resolve contractual issues. These weaknesses have yet to be corrected.

    1
     U.S. Army Corps of Engineers, Honolulu District: Review of the Operation and Management of the
    Capital Improvement Program for the Commonwealth of the Northern Mariana Islands, March 2003.
    U.S. Army Corps of Engineers, Honolulu Engineer District: Evaluation of the Design of the Public Health
    Building, Saipan, Commonwealth of the Northern Mariana Islands, August 2005.
                                                            2
The 2005 report, which evaluated the design of the public health facility, concluded that
the A&E contracts lacked critical provisions to ensure quality and timely deliverables, a
condition that we determined was a significant factor in CNMI’s inability to resolve
design problems with the initial A&E firm. The report also recognized that CNMI lacked
the necessary contracting expertise to manage large-scale CIPs and recommended that
CNMI seek external assistance in the short term, while it developed long-term expertise.



                                                                 Saipan Public
                                                                Health Facility
                                                              Capital Improvement
                                                                     Project




     Construction of new wing
     (photo right) of the
     Commonwealth Health
     Center (photo above).
     Photos courtesy:
     Office of Inspector General
     (OIG)

                                                                                  Figure 2

        Warning signs, such as costly contract modifications, were clearly present
throughout the life of the Project and should have prompted your office to step up its
oversight to ensure that CNMI had the qualified and experienced officials necessary to
administer large-scale CIPs. Although cognizant of the problems that surfaced
throughout the Project’s history, as evidenced by site visit reports by the two OIA staff
located in the CNMI, your office took no action. In fact, your office continued to allocate
funds ($6.5 million to date) and reported the following in its fiscal year 2006 Budget
Justification to the Interior and Related Agencies Appropriations Subcommittees:

    CNMI has made great strides to strengthen the government’s ability to
    effectively manage infrastructure grants and accelerate the spending of grant
    funds, and it has been especially diligent by assigning capable individuals to
    manage grant funds and by supporting project manager positions to monitor
    projects.

       Contrary to OIA’s assertions, our evaluation disclosed that CNMI mismanaged
the Project to the extent that the new facility may not be fully operational and that OIA
now needs to recover its portion of over $1.2 million of questioned costs identified during
our evaluation (see Table 1). Had OIA heeded the early warning signs that the Project

                                           3
was in jeopardy, it could have mitigated the problems that surfaced and helped to ensure
that CNMI had qualified and experienced officials administering the Project.

                                           Table 1
                             Costs Questioned During Evaluation
                Finding Area            Costs*            Basis for Questioning
       Installation of Air Conditioning        $503,151      Unreasonable costs in excess of
                                                             independent Government estimate.
       Failure of SSFM International,               45,000   Duplicative contract to Summit
       Inc., to analyze contractor claims                    Consulting International.
       Allocation of Project                    103,680      Portion of construction management
       Management Contract Costs                             contract costs that did not benefit Project
                                                             (Contractor was Stanley Good, P.E. dba
                                                             Azuma Limited).
       Construction Delay Claim                 588,313      Unsupported contractor claim for delays,
                                                             based on Summit report.
          Total                             $1,240,144
     * Fifty percent of funding for the Project was provided by OIA and 50 percent by CNMI.

Necessity of Active OIA Oversight
        Given CNMI’s current economic downturn and its lack of contracting expertise,
your office must actively oversee CNMI’s CIP program to ensure the successful
completion of projects. OIA is not using the tools it developed specifically to improve
performance and accountability in the insular areas. Your competitive allocation system,
implemented in fiscal year 2005, could provide the catalyst for helping CNMI develop a
contracting office with highly skilled professionals capable of managing CIP grants.
Under the system, any insular area not spending CIP funding effectively could receive
less funding in the future. OIA’s 2006 Budget Justification delineates the criteria for
determining CIP allocations to insular area governments. Key criteria include:

     ¾ Reliability and timely completion of single audits, including resolution of
       findings.
     ¾ Prudent financial management.
     ¾ Compliance with grant reporting requirements.
     ¾ Extent to which CIP projects fulfill economic goals and meet community needs.
     ¾ Effective contract administration.

        We found that OIA’s initial CIP rating in December 2005 did not include
“effective contract administration” in its scoring sheets for all four insular areas rated.
CMNI, for example, received essentially the same level of CIP funding as the prior year,
despite its highly ineffective contract administration of the Project. The problems we
found are not unique to the health facility, as CNMI followed similar practices on other
CIP projects.




                                                4
        Another management tool is imposing sanctions under Title 43 of the Code of
Federal Regulations (43 CFR 12.52),2 as appropriate, for a grantee that has a history of
unsatisfactory performance. These sanctions include:

              ¾ Withholding approval to proceed from one project phase to another until
                receipt of acceptable evidence of contract performance.
              ¾ Additional project monitoring.
              ¾ Requiring the grantee to obtain technical or management assistance.

         OIA’s oversight failure, coupled with CNMI’s poor management, has jeopardized
the successful completion and operation of the Project. A project that is not complete or
usable as planned not only negates your office’s goal of helping CNMI develop an
“economic backbone,” but also endangers the quality of health care for CNMI citizens.
Without a fully functioning facility, CNMI will not be able to improve the quality of care
for its sick and most vulnerable patients, among them those patients requiring life-
sustaining hemodialysis.

Recommendations
        We recommend that you take actions to:

             1. Participate with CNMI in developing a CIP planning process that ensures
                the completion of the health facility Project and the funding of both
                construction and operation and maintenance costs of future CIPs.

             2. Initiate appropriate and timely sanctions, such as reducing CIP funding
                under the competitive allocation system, should CNMI fail to implement
                the corrective actions in response to our recommendations in the attached
                report Evaluation of Saipan Public Health Facility Project: Oversight of
                Capital Improvement Projects, Commonwealth of the Northern Mariana
                Islands (Appendix 4).

             3. Take an active role in helping CNMI develop a contracting office with
                professionals who have the experience and expertise to effectively manage
                large-scale CIPs. This could include modeling the contracting office
                along the lines of federal acquisition education, training, and experience
                requirements.

             4. Recover OIA’s portion of the questioned costs identified in Table 1 and
                Appendix 1 of this report.

OIA Response and OIG Reply
       Based on your January 22, 2007 response (Appendix 2) and subsequent
discussions with OIA staff, we consider Recommendations 1, 2, and 4 to be resolved but

2
 43 CFR 12.52 specifies that a grantee may be considered high risk if the federal awarding agency
determines that the grantee has a history of unsatisfactory performance, is not financially stable, has a
management system that does not meet standards, has not conformed to terms and conditions of previous
awards, or is otherwise not responsible.
                                                  5
not implemented and Recommendation 3 to be unresolved. The status of audit
recommendations is shown in Appendix 3.

Recommendation 1
        In your response you stated that the CNMI health facility is “substantially
complete” and that “OIA will continue to work closely with the CNMI Government to
ensure satisfactory completion of the Project.” You also stated that OIA, CNMI
Government, and Office of the Solicitor have discussed possible solutions to develop the
resources necessary to operate and maintain all CIPs on a long-term basis, including
developing “a maintenance account funded by a percentage of the CNMI Government’s
annual CIP allocation” to cover operation and maintenance (O&M) costs of CIPs and
“allocating building space for private-sector use to help generate revenues to cover
operating costs.” In subsequent communications with your office, staff identified the
OIA official responsible for implementing the recommendation, but stated that
determining a completion date would be unrealistic, as the authority to ensure funding of
CIP O&M costs may ultimately rest with the Office of the Solicitor or Congress.

         OIG Reply. We are pleased to learn of ongoing discussions to address the
important issue of ensuring long-term O&M for CIPs, particularly in the case of the
health facility, which is essential to improving the quality of health care available to the
residents of CNMI. While OIA may not have the final decision-making authority to
determine how to cover long-term O&M for CIPs, it is the agency charged with carrying
out the Secretary’s mandate to assist in the economic development of the insular areas
and to be responsive to their needs. As such, OIA is the logical agency to pursue
resolution of the issue of O&M funding for CIPs. Moreover, regardless of who makes
the final decision, OIA will be a vital player in that decision, given its special relationship
with and knowledge of the insular areas. Finally, we believe that the urgency of
addressing long-term O&M costs requires a timetable, particularly when considering the
near disastrous effect of the failure to consider these costs on CNMI’s public health
facility, which was not completed in October 2006 as scheduled and which has not yet
been opened. We therefore request that you provide us with the target date for resolving
the issue with the Office of the Solicitor and determining final decision authority.

Recommendation 2
       In your response, you stated that your funding allocation process is based, in part,
on a grantee’s timely resolution of audit recommendations and that OIA would
“incorporate” our “report’s recommendations, as applicable, into the process of allocating
OIA funding.” You also stated that over the past several fiscal years, OIA “has reduced
the CNMI Government’s CIP funding levels” and that “an initial preparation of the
budget for FY 2008 indicates a similar reduction.”

       OIG Reply. We commend OIA’s current use of the allocation process to
encourage accountability in funding CIPs and request that you provide a target date for
incorporating our report’s recommendations into your process for allocating CNMI
funding.




                                            6
Recommendation 3
        In your response, you “respectfully assert[ed] that OIA has provided appropriate
and effective oversight of the Project” and identified a number of actions taken “to help
the CNMI Government to more effectively perform its contract management
responsibilities.” In addition, during subsequent communication with your office, staff
indicated that OIA cannot mandate a contracting office.

        OIG Reply. We disagree on the effectiveness of OIA’s oversight and point to the
troubled history of the Project itself as proof of the failure of your office to heed obvious
warning signs, such as the 2003 and 2005 Corps’ reports, and step up your oversight to
keep the Project on target. The oversight actions cited in your response primarily
addressed your assistance in helping CNMI develop project and construction
management expertise. While project and construction managers, engineers, and
architects may have highly developed technical skills, they generally do not possess the
highly specialized contracting expertise needed to effectively manage large-scale CIPs.
Recommendation 3 reflects our findings, as well as the conclusions of both Corps’
reports, which identified serious contracting deficiencies and spoke to an urgent need to
develop contracting expertise. Without this expertise, the deficiencies identified in both
our report and the Corps’ reports will continue to undermine your goal of using CIPs as
the “building blocks for self-sufficiency in the insular areas.” While your office may not
be able to mandate a contracting office, it can hold CNMI accountable for implementing
our audit recommendation and thereby take a proactive role in helping CNMI effectively
manage large-scale CIPs. We are therefore requesting that you reconsider the
recommendation (see Appendix 3).

Recommendation 4
       In your response, you stated that OIA did “not agree with the recommendation”
and identified actions that had been taken to address the cost issues. You also asked us to
provide you with any additional information on the costs regarding the installation of air
conditioning.

       OIG Reply. As requested, we provided supporting documents for the air
conditioning costs in January 2007. Based on your response and subsequent
communications with your staff, we consider Recommendation 4 to be resolved, but not
implemented (see Appendix 3).

        The legislation, as amended, creating the Office of Inspector General requires that
we report to Congress semiannually on all audit reports issued, the monetary effect of
audit findings, actions taken to implement our audit recommendations, and
recommendations that have not been implemented. The monetary effect of the findings is
shown in Table 1 and Appendix 1 of this report.

        Please provide a written response to this report by July 13, 2007. The response
should supply the information requested in Appendix 3. We appreciate the cooperation
shown by your office during our evaluation. If you have any questions regarding this
report, please call me at (202) 208-5745.



                                            7
Appendix 1
Monetary Impact


                                            Questioned
                     Finding Areas            Costs

         Installation of Air Conditioning    $ 503,151

         SSFM Deduction for                    45,000
         Nonperformance

         Allocation of Project Management     103,680
         Contract Costs

         Construction Delay Claim              588,313

             Total                          $1,240,144




                                       8
Appendix 2
OIA Response




               9
10
11
12
13
Appendix 3
Status of Recommendations


Recommendations       Status                      Action Required

     1 and 2      Resolved; Not        Provide target dates for completion of
                  Implemented          implementation.

        3         Unresolved           Reconsider the recommendation and
                                       provide a plan identifying actions to be
                                       taken, target dates for completion, and
                                       titles of officials responsible for
                                       implementation

        4         Resolved; Not        Provide (1) documentation showing
                  Implemented          target dates for resolution of questioned
                                       costs related to installation of air
                                       conditioning and SSFM’s deduction for
                                       nonperformance and (2) copies of
                                       change orders showing deductions for
                                       $250,000 and $67,000 for construction
                                       delay claims.




                                  14
Appendix 4
OIG Report: Evaluation of Saipan Public Health Facility
Project: Oversight of Capital Improvement Projects,
Commonwealth of the Northern Mariana Islands
                            U.S. Department of the Interior
                                  Office of Inspector General


                              Office of the Public Auditor
                                Commonwealth of the Northern
                                     Mariana Islands


                               EVALUATION REPORT
                                                                                  June 8, 2007

The Honorable Benigno R. Fitial                  The Honorable Joseph M. Mendiola
Governor of the Commonwealth                     Senate President
 of the Northern Mariana Islands                 15th Commonwealth Legislature
Juan S. Atalig Memorial Building                 P.O. Box 500129
Isa Drive, Capitol Hill                          Saipan, MP 96950
Saipan, MP 96950

Dear Governor Fitial and Mr. Mendiola:

        The enclosed report presents the results of our evaluation of the Saipan Public
Health Facility Project (Project) by the Office of Inspector General (OIG) and the Office
of the Public Auditor for the Commonwealth of the Northern Mariana Islands (CNMI).
We conducted the evaluation in response to a request by the CNMI Legislature to
recommend appropriate action to ensure Project funds are expended in compliance with
applicable laws and regulations. In line with this request, we evaluated CNMI’s
management of the Project and identified opportunities for improved performance and
results. Because of serious management deficiencies, we also evaluated the Office of
Insular Affairs’ oversight of the Project and are issuing a separate report to the Deputy
Assistant Secretary for Insular Affairs. We did not, however, evaluate the claims filed by
Project construction contractors because Summit Consulting International (Summit),
under contract with CNMI, has reviewed these claims. CNMI is currently using the
Summit report in negotiations with Project contractors to settle contractor claims. The
scope and methodology of our review are detailed in Appendix 1 of the report.

         At $17.6 million, the Project is one of CNMI’s largest capital improvement
projects (CIP). Since its inception 6 years ago, the Project’s magnitude and scope have
changed significantly as it evolved from a hemodialysis center to a state-of-the-art health
facility. The construction contract alone increased from $5.6 million to $12.5 million,
over double the initial contract amount, and Project completion has been delayed to the
point that as of the date of this report, it has yet to be completed. Changes in the scope of
the Project are only partially responsible for the contract modifications and time delays.
Serious deficiencies in the contracting process, including the failure to adhere to
established procurement regulations and the lack of qualified and experienced officials to
administer the CIP program, significantly affected construction costs and time frames.
Some of these issues were noted in U. S. Army Corps of Engineers (Corps) reports,
issued in 2003 and 2005 (Appendix 1), but CNMI failed to use this information to
improve its contracting operations. Had CNMI used the 2003 report, for example, it
might have mitigated the problems that surfaced on the Project by establishing a strong
contracting office and using attorneys trained in procurement regulations to provide
critical guidance

        The recent downturn in CNMI’s economy has heightened our concern, as CNMI
has not identified a funding source for the estimated $5 million to $8 million needed
annually to operate the new facility. CNMI will not be able to improve the quality of
care for its sick and most vulnerable patients, including those requiring life-sustaining
hemodialysis, without a fully functioning facility. We made four recommendations to
help CNMI better manage the contracting process. We believe that implementation of
these recommendations can help CNMI minimize contract costs and delays on future
CIPs.

       In your March 6, 2007 response to our draft report (Appendix 4), you concurred
with Recommendations 1, 2, and 3 and directed the Office of the Attorney General, in
conjunction with the Secretary of Finance, to take the lead and implement our
recommendations within 120 days. Based on the response, we consider these
recommendations to be resolved but not implemented. Your response did not address
Recommendation 4, and, as such, we consider this recommendation to be unresolved.
The status of our recommendations is shown in Appendix 5.

        The legislation, as amended, creating the OIG requires that we report to Congress
semiannually on all audit reports issued, the monetary effect of audit findings, actions
taken to implement audit recommendations, and recommendations that have not been
implemented. See Appendix 2 for the monetary impact of the findings in this report.

        Please provide a response to Recommendation 4 by July 13, 2007. Your response
should state concurrence or nonconcurrence with the recommendation and provide the
information requested in Appendix 5. Please address your response to Mr. Kevin Graves,
Acting Field Supervisor, Honolulu Field Office, 2800 Cottage Way, Suite E-2712,
Sacramento, California 95825. We appreciate the cooperation shown by the CNMI
government during our evaluation. If you have any questions regarding this report,
please call me at (202) 208-5745 or Mr. Sablan at (670) 322-6481.

               Sincerely,



               ______________________                _______________________
               Earl E. Devaney                       Michael S. Sablan
               Inspector General                     Public Auditor, CNMI
Enclosure

cc: David B. Cohen, Deputy Assistant Secretary for Insular Affairs
    Nikolao Pula, Director, Office of Insular Affairs
    Marina Tinitali, Audit Liaison Officer, Office of Insular Affairs
                                            2
Contents
                                                                                                                              Page

Project History .....................................................................................................................1

Results of Evaluation: Strong Contracting Office Needed to Manage All Capital
Improvement Projects ..........................................................................................................3
  CNMI Failed in Key Areas of Contracting Process........................................................3
  Strong Contracting Office Essential .............................................................................11

Recommendations..............................................................................................................13
  Governor’s Response and OIG Reply...........................................................................14

Appendices
    1    Objective, Scope, and Methodology................................................................15
    2    Monetary Impact..............................................................................................17
    3    Project Offices, Organizations, and Responsibilities.......................................18
    4    CNMI Government Response .........................................................................19
    5    Status of Recommendations ............................................................................20




Acronyms
A&E ...................................................................................... Architectural and Engineering
AIC...........................................................................................................AIC Marianas, Inc.
CIP .......................................................................................... Capital Improvement Project
CNMI .......................................................Commonwealth of the Northern Mariana Islands
COTR.........................................................Contracting Officer’s Technical Representative
DPW............................................................................ Department of Public Works, CNMI
IGE.................................................................................Independent Government Estimate
OIA .................................................... Office of Insular Affairs, Department of the Interior
OIG ............................................... Office of Inspector General, Department of the Interior
SSFM ..............................................................................................SSFM International, Inc.




                                                                  i
Project History
                  The Commonwealth of the Northern Mariana Islands
                  (CNMI) is a self-governing Commonwealth of the United
                  States located about 3,300 miles west of Hawaii. CNMI
                  consists of 14 islands, with a total land area of 183.5 square
                  miles and a population of about 70,000. The principal
                  inhabited islands are Saipan, Rota, and Tinian.




                                              Map of Pacific Islands
                                                           Figure 1
                                          Source: www.maps-pacific.com
                                           (CNMI reference added by OIG)

                  The Secretary of the Department of Finance, who is
                  responsible for procurement and supply functions for the
                  CNMI Government, has delegated procurement authority for
                  capital improvement projects (CIP) to the Secretary of the
                  Department of Public Works (DPW). To ensure the efficient
                  functioning of the CIP contracting process, DPW is
                  responsible for (1) reviewing specifications and statements of
                  work to ensure compliance with procurement principles,
                  (2) incorporating required provisions in contracts,
                  (3) negotiating a fair and reasonable contract price,
                  (4) modifying contracts to incorporate changes, and
                  (5) enforcing contract provisions.

                  At $17.6 million, the Saipan Public Health Facility Project is
                  one of CNMI’s largest CIPs, with 50 percent of the funding
                  ($8.8 million) provided by the Office of Insular Affairs
                  (OIA) and 50 percent by CNMI. The Project is the first
                  expansion of the Commonwealth Health Center (Center) in
                  about 18 years. Constructed in the mid-1980s on the island
                  of Saipan, the Center was geared for a population of 35,000.
                  Population on the island today is about 62,000.


                                  1
                                 Based on funding available at the time, the Project was
                                 initially conceived as a hemodialysis center.1 DPW awarded
                                 an architectural and engineering (A&E) contract to Leo A.
                                 Daly Company to design the Project in October 2000 and a
                                 firm, fixed-price construction contract for $5.6 million to
                                 AIC Marianas, Inc. (AIC), in June 2002. Project completion
                                 was scheduled for August 2004. To help oversee the Project,
                                 CNMI awarded contracts to N. Stanley Good, P.E. dba
                                 Azuma Limited (Azuma) and SSFM International, Inc.
                                 (SSFM), for construction management services. Project
                                 offices, organizations, and responsibilities are shown in
                                 Appendix 3.

                                 As funding increased, the Project evolved into a two-tiered,
                                 state-of-the-art health facility, with the hemodialysis center
                                 on the upper level and executive and administrative offices,
                                 bio-terrorism center, and a 10,000 square-foot medical
                                 warehouse room on the lower level. A key benefit of the
                                 expanded facility was a larger hemodialysis unit. With
                                 29 stations, more than double the stations now available at
                                 the Center, hemodialysis patients can receive life-sustaining
                                 treatment at reasonable hours of the day. To accommodate
                                 its patient workload, the existing hemodialysis center
                                 operates 24 hours a day, 7 days a week. In January 2004, a
                                 second A&E contract was awarded to Taniguchi Ruth
                                 Architects (Taniguchi) to re-design the expanded Project.

                                 As construction began, CNMI encountered design problems
                                 which were not resolved by the initial design firm. CNMI
                                 modified the Taniguchi contract to re-work portions of the
                                 design. The re-work resulted in alleged Project delays and in
                                 $855,535 in claims filed by AIC and its subcontractor for
                                 design delays, changes and disruptions. Summit Consulting
                                 International (Summit), under contract with CNMI, reviewed
                                 these claims, recommended payment of $267,222, and
                                 questioned $588,313. CNMI is currently using the Summit
                                 report in negotiations with Project contractors.

                                 In November 2004, the CNMI Legislature, concerned about
                                 cost overruns and delays, asked us to evaluate the Project, a
                                 review that we undertook in cooperation with CNMI’s Office
                                 of the Public Auditor.


1
  Hemodialysis, the most frequently prescribed type of dialysis treatment for patients suffering from kidney
failure, involves use of a special filter called a dialyzer or artificial kidney to clean the blood. Most
hemodialysis patients require treatment three times a week and an average of 3 hours per dialysis “run.”


                                                     2
 Results of Evaluation:
 Strong Contracting Office Needed to Manage All
 Capital Improvement Projects

                           The lack of a strong contracting office impeded construction
                           of the Project from the start. As CNMI’s CIP Contracting
                           Office, DPW lacked the contracting expertise, such as a
                           qualified and experienced contracting officer and cost-price
                           analyst, to plan and administer the Project. The costly
                           modifications and delays experienced by the Project as it
                           evolved increased initial contract awards by over $7 million
                           and delayed Project completion. As shown on Figure 2, the
                           construction contract alone increased from $5.6 million to
                           $12.5 million.

                                                                       Construction Contract Costs

                     $14,000,000
                                                                                                                                              $12.5 M

                     $12,000,000                                                                                            $11.5 M

                     $10,000,000

                      $8,000,000                                                              $6.9 M
                                                                                                                      $7.8 M
                                                           $5.9 M
                      $6,000,000                                                $6 M
                                        $5.6 M
                      $4,000,000

                      $2,000,000
                                                                                                                                  AIC Construction
                                   $0
                                                              3




                                                                                                  4




                                                                                                                    4




                                                                                                                                      5




                                                                                                                                                        6
                                                                               03
                                          02




                                                            /0




                                                                                                /0




                                                                                                                  /0




                                                                                                                                    /0




                                                                                                                                                      /0
                                                                             0/
                                        6/



                                                          -5




                                                                                              -4




                                                                                                                -8




                                                                                                                                  -3




                                                                                                                                                    -1
                                                                           -1
                                       -



                                                     #1




                                                                                         #3




                                                                                                           #4




                                                                                                                             #5




                                                                                                                                               #6
                                    ct




                                                                      #2
                                tra




                                                                                          n




                                                                                                                              n




                                                                                                                                                n
                                                      n




                                                                                                            n
                                                                       n



                                                                                      tio




                                                                                                                          tio




                                                                                                                                            tio
                                                  tio




                                                                                                        tio
                              on




                                                                   tio



                                                                                   ca




                                                                                                                       ca




                                                                                                                                         ca
                                               ca




                                                                                                     ca
                               C




                                                                ca
                                           if i




                                                                               if i




                                                                                                 if i




                                                                                                                   if i




                                                                                                                                     if i
                            al




                                                            if i
                                         od




                                                                             od




                                                                                               od




                                                                                                                 od




                                                                                                                                   od
                          in




                                                          od
                       rig




                                        M




                                                                            M




                                                                                              M




                                                                                                                M




                                                                                                                                  M
                                                          M
                     O




                                                                                                                                             Figure 2

                           We believe strong contracting office planning and
CNMI Failed in             administration could have mitigated the cost overrun and
Key Areas of               delay problems that surfaced on this Project and ensured
Contracting                compliance with CNMI’s procurement regulations. Our
Process                    evaluation identified significant weaknesses in CNMI’s
                           contracting process. Specifically, CNMI officials failed to
                           ensure that (1) contractor proposals were properly evaluated
                           and negotiated, (2) A&E contracts included key provisions to
                           protect government interests, (3) contract modifications were
                           justified and reasonably priced, (4) contractor
                           nonperformance was documented and appropriate corrective



                                                                  3
action taken, and (5) costs were properly allocated to the
Project.

Evaluation and Negotiation of Contractor
Proposals Were Inadequate
The failure of CNMI contracting officials to comply with
procurement regulations seriously compromised the
evaluation and negotiation of Project contractor proposals. It
is CNMI’s policy to negotiate contracts for a fair and
reasonable price based on demonstrated contractor
competence and qualifications. The general process for
negotiated contracts is outlined in Figure 3 on page 5.

Deficient Proposal Evaluations. CNMI did not adhere to its
procurement regulations involving contractor selection for
the two A&E contracts and the Summit contract. To ensure
selection of the best contractor, the evaluation process
requires (1) qualified evaluators, (2) written evaluation
instructions, (3) independent government estimates (IGEs),
and (4) oversight by an experienced contracting officer. We
found CNMI lacking in all these areas.

Under CNMI regulations, the evaluation team documents the
selection decision by assessing the comparative strengths,
weaknesses, and risks of each offeror’s proposal in terms of
the evaluation factors in the solicitation. Our analysis
showed that the evaluation team included only numerical
scores with minimal comments to support the scores. The
scoring system used by the Summit evaluation team was
inconsistent; one evaluator, for example, used a one to five
scoring system, while a second evaluator used a zero to one
scoring system. As a result of deficiencies in proposal
evaluations, the contractors selected for the A&E and delayed
claim contracts may not have been the best qualified firm.




                4


   Develop contract requirement.


   Prepare IGE to determine what the contract should cost.
    The IGE is developed independently without contractor
    influence, based on the proposed scope of work and
    historical costs.



   Ensure sufficient funds are available.


        
        
         Conduct market research to determine best method of
          acquiring goods and services.

        
        
         Develop acquisition plan to identify key milestones in the
          acquisition process and address significant technical,
          management, or other considerations.

        
        
         Develop source selection plan.


                 
                 
                  Issue solicitation.
                 
                 
                  Conduct contractor site visits.
                 
                 
                  Convene selection team of qualified personnel and
                   provide team with an evaluation plan that includes, at a
                   minimum, (1) statement of evaluation factors and their
                   relative importance, (2) evaluation process methodology
                   and techniques to be used, and (3) documentation
                   requirements.


                          
                          
                           Evaluate proposals.
                          
                          
                           Conduct discussions and negotiations.
                          
                          
                           Prepare post-negotiation memorandum to document the
                            rationale for selecting and awarding the contract and
                            determining reasonability of price.


                                    
                                    
                                     Award Contract.
                                    
                                    
                                     Monitor contractor performance.
                                    
                                    
                                     Close out contract.




                                                         General Process for Negotiated Contracts
                                                                                         Figure 3




                                                       5
Poor Negotiation Practices. CNMI did not ensure that
contracts, including modifications, were negotiated for a
reasonable price, as required by regulations. Specifically, the
regulations outline the following types of information that
must be reviewed and evaluated when determining price
reasonability: (1) the IGE, (2) cost information in sufficient
detail to support and justify the contract, and (3) cost
information for similar services. CNMI officials stated that
A&E contracts were awarded based solely on the contractor’s
proposed price absent any price or cost analysis or
negotiations. CNMI did not develop an IGE or require the
contractors to submit a detailed proposal that included a cost
breakdown by labor category, labor hours, labor rates,
overhead, and profit. Without an IGE and contractor cost
breakdown, CNMI could not compare labor hours with labor
hours of similar projects, labor rates with labor rate surveys
and contractor payroll records, and overhead rates with
contractor financial records to determine the reasonability of
proposed rates and negotiate a reasonable contract price.

Design Contracts Deficient
As Project construction began, DPW officials and the initial
design firm worked to resolve design issues. However, DPW
officials said that as the Project moved further along, the firm
failed to respond to DPW’s numerous requests for
information and a key principal of the design team was no
longer involved with the Project. Alleged design problems
began to surface, and the second A&E firm’s scope of work
was modified to correct design problems. At the same time,
CNMI hired the U.S. Army Corps of Engineers (Corps) to
independently assess the Project’s design. The Corps’ report
included an exhaustive list of technical comments on the
initial Project design. For example:

      New site work items, such as roads and parking,
       were incomplete or not shown.

      Building finished floor was shown with no possible
       way for adjacent areas to connect to it.

      Grading was incorrect.

According to a Corps’ official, the absence of key provisions
was instrumental in CNMI’s inability to resolve alleged
design deficiencies with the initial A&E firm. Our
evaluation, confirmed by the Corps’ report, revealed that


                6
CNMI’s A&E contracts lacked key standard provisions
usually found in federal government contracts to ensure the
professional quality of designs, drawings, specifications, and
other services furnished by a contractor. Unfortunately,
CNMI uses the same A&E template for all of its CIPs. As a
result of CNMI’s failure to involve attorneys experienced in
procurement, provisions such as those shown in Figure 4
were not included in the contract.


                Responsibility of the Contractor
 The Contractor shall be responsible for the professional quality,
 technical accuracy, and coordination of all designs, drawings,
 specifications, and other services furnished by the Contractor under the
 contract. The Contractor shall, without additional compensation, correct
 or revise any errors or deficiencies in its designs, drawings,
 specifications, and other services (Federal Acquisition
 Regulation 52.236-23).*
 * To further protect its interest, CNMI should add a time frame to this
 provision for correcting deficiencies



                 Substitutions of Key Personnel
 The Contractor shall provide complete resumes for proposed
 substitutes and any additional information requested by the Contracting
 Officer. Proposed substitutes should have comparable qualifications to
 those of the persons being replaced. The Contracting Officer will notify
 the Contractor within 15 days after receipt of the required information of
 the consent of the substitutes. No change in fixed prices may occur as
 a result of key personnel substitution (Naval Facilities Command
 (NAVFAC) 52.52.237-9301).



                                                                Figure 4

Contract Modifications Were Not Managed
Effectively
CNMI management of contract modifications for the Project
was also poor. For example, CNMI did not ensure
modifications for sole source procurements were justified,
reasonably priced, and processed timely, as required by
procurement regulations. Effective management of contract
modifications is critical, as modifications can significantly
increase the cost and duration of a project.

Unsupported Sole Source Procurements. CNMI
procurement regulations are designed to promote full and
open competition to help ensure the best product or service is
obtained at the lowest possible price. In line with these
regulations, CNMI awarded the basic contracts for the
Project competitively. However, it issued contract


                  7
                                  modifications to an incumbent contractor without
                                  competition when it should have solicited new bids/contracts.
                                  The initial Project plans focused on a fully operational
                                  hemodialysis center on the upper level and did not include
                                  the completion of the lower level for executive offices and
                                  clinics. Examples of lower level items included:

                                   Architectural drawings for interior spaces ($681,600).

                                   Additional elevator for lower level ($110,700).

                                   Additional electrical work for lower level ($398,500).

                                  CNMI contract modifications for these requirements
                                  amounted to sole source procurement without a valid reason.

                                  Inadequate Price or Cost Analysis. CNMI did not conduct
                                  price or cost analyses2 to determine the reasonability of
                                  contract modifications and use the analyses in price
                                  negotiations. In our opinion, had CNMI conducted such
                                  analyses for the following modifications, it may have saved
                                  significant costs:

                                   Air-Conditioning Equipment - In developing the initial
                                    bid, AIC followed the standard contracting practice of
                                    soliciting quotes for air-conditioning installation from
                                    multiple vendors and selected the lowest priced
                                    responsible bidder. However, when CNMI revised the
                                    specifications prior to installation and requested AIC to
                                    submit a new price proposal, AIC requested only the
                                    selected vendor to submit a quote rather than seeking
                                    multiple quotes. CNMI eventually approved the
                                    modification for $2,085,481 ($503,151 more than its
                                    engineering estimate). A CNMI official could not
                                    provide a valid explanation or post-negotiation
                                    documents to explain this significant difference.

                                   Construction Management Services - The original
                                    management services contract was competitively bid and
                                    awarded to SSFM. However, CNMI did not conduct a
                                    price or cost analysis or develop an IGE to ensure that
                                    modifications to extend the contract were reasonably

2
  A price analysis evaluates and compares a contractor’s proposed price with (1) the IGE, (2) other prices
received in response to the solicitation, (3) commercial prices, or (4) previous prices proposed for the same
or similar items. A cost analysis analyzes each element of cost in the contractor’s proposal and is usually
required if a price analysis alone is insufficient to determine reasonability of a proposed price.


                                                      8
                                        priced. CNMI approved a modification for $186,840 to
                                        extend services for 1 year and was in the process of
                                        approving a second modification for $186,840 for an
                                        additional 1-year extension at the time of our review.
                                        The modification prices were based upon SSFM’s initial
                                        award. Although CNMI could have negotiated a
                                        substantially reduced cost for these modifications based
                                        on (1) the expected decline of SSFM’s involvement in the
                                        Project as it neared completion3 and (2) SSFM’s
                                        noncompliance with the provisions of the contract, as
                                        discussed in the following section, it did not do so. In
                                        addition, despite CNMI procurement regulations
                                        prohibiting agencies from allowing contractors to work
                                        with an expired contract, SSFM was allowed to do so
                                        from August 2005 until at least December 2005.

                                    Action Was Not Taken to Address Contractor
                                    Nonperformance
                                    CNMI failed to adequately monitor SSFM’s performance to
                                    ensure compliance with contract terms. CNMI awarded a
                                    firm, fixed-price contract to SSFM for project construction
                                    management based on SSFM’s technical proposal that it had
                                    qualified and experienced staff to perform the required tasks
                                    and deliverables. These tasks and deliverables included
                                    development of IGEs for contract modifications and analyses
                                    of contractor delay claims. Despite SSFM’s failure to
                                    comply with these requirements, CNMI took no action to
                                    recover costs from SSFM. CNMI’s only reaction to SSFM’s
                                    nonperformance was to award a $45,000 fixed-price contract
                                    to Summit to analyze construction delay claims that were
                                    within the scope of the SSFM contract. As of November
                                    2005, CNMI had not taken any action against SSFM to
                                    recoup monies for nonperformance.

                                    Evaluating and documenting contractor performance is a
                                    critical contracting best practice. Documentation of
                                    deficiencies is vital in seeking corrective actions, including
                                    contract deductions and termination. In addition, a
                                    contractor’s past performance is a key factor in the contractor
                                    evaluation process. Federal agencies are required to maintain
                                    a contractor performance database that includes the
                                    contractor’s track record in conforming to contract
                                    requirements, schedules, budgets, and standards of good
                                    workmanship and demonstrating a commitment to customer

3
    SSFM had only one inspector at the construction site on a periodic basis.


                                                       9
                                    satisfaction. CNMI does not have such a database, even
                                    though the Corps’ 2003 report recommended that CNMI
                                    establish one. A contractor performance database would
                                    better enable CNMI to evaluate future contract proposals.

                                    Contract Costs Were Improperly Allocated
                                    CNMI did not establish procedures to ensure that project
                                    management contract costs were properly allocated to
                                    projects. The Project was funded by an OIA-administered
                                    grant and is subject to Office of Management and Budget
                                    Circular A-87 “Cost Principles for State, Local, and Indian
                                    Tribal Governments,” which states that costs are allocable to
                                    a grant or contract in line with the relative benefits received.
                                    CNMI failed to comply with this provision. The Azuma
                                    contractor was responsible for managing several projects for
                                    CNMI. However CNMI improperly charged the entire
                                    $273,600 to the Project instead of allocating the costs to all
                                    benefiting projects proportionate to the benefits received and,
                                    as a result, overcharged the Project by about $103,6804 over
                                    the 2-year period ending June 2005 (see Figure 5).


                                                        PROJECT MANAGEMENT COSTS
                                                         Item               Claimed      Questioned
                                                Original Contract            $86,400        $34,560
                                                Modification 1, 2 and 3     $187,200        $69,120
                                                         Totals             $273,600        $103,680

                                                                                            Figure 5

                                    Proprietary Information Was Not Safeguarded
                                    CNMI did not ensure that contractor proprietary information
                                    was adequately safeguarded against unauthorized use and
                                    disclosure. During the evaluation process, government
                                    employees analyze contractor proposals, which include
                                    privileged or confidential information, such as cost
                                    breakdown; direct labor rates; overhead rates; profit margins;
                                    trade secrets; and manufacturing processes, operations, and
                                    techniques. Release of this information could result in
                                    competitive harm to the contractor or impair the
                                    government’s ability to obtain like information in the future.
                                    The importance of safeguarding proprietary information is
                                    such that the federal government enacted government-wide
                                    legislation stipulating civil and criminal penalties for
4
    Based on time estimates spent on the respective projects, as provided by an Azuma official.


                                                      10
                                    unauthorized disclosure and use of such information.
                                    Although we did not find instances of unauthorized
                                    disclosure and use, CNMI did not have adequate control over
                                    contractor proposals and was, in fact, unable to locate all
                                    contractor proposals submitted for the Project.

                                    The lack of a strong contracting office is the root cause for
Strong                              deficiencies identified in CNMI’s contract management. The
Contracting                         federal government has long recognized the importance of
Office Essential                    developing a highly skilled professional acquisition
                                    workforce. Studies conducted in the 1970s resulted in
                                    improved management of the acquisition workforce and the
                                    passage of key legislation. In 1990, for example, the Defense
                                    Acquisition Workforce Improvement Act established
                                    education, training, and experience requirements for the
                                    Department of Defense. The 1996 Clinger-Cohen Act
                                    established comparable requirements for civilian agencies.
                                    As a result, contracting officials in federal agencies today are
                                    required to meet education and experience requirements and
                                    undergo a rigorous and extensive training program, including
                                    continuing education requirements to maintain or enhance
                                    their skills. For example, requirements for a Level II5
                                    Contracting Officer are listed in Figure 6.


                                            CONTRACTING OFFICER LEVEL II REQUIREMENTS
                                              Education             Experience            Training
                                         Baccalaureate Degree        Two years of       Contracting
                                                                     contracting
                                         Minimum of 24               experience         Contract Pricing
                                         semester hours including
                                         accounting, business,                          Government
                                         law, finance, contracts,                       Contract Law
                                         purchasing, and
                                         industrial management

                                                                                                Figure 6

                                    Key contracting officials in CNMI, however, are political
                                    appointees and often lack the contracting expertise to plan
                                    and administer CIP projects. In this case, DPW did not have
                                    a qualified and experienced contracting officer or cost-price
                                    analyst to plan and administer the Project. The practice of
                                    using political appointees also results in the lack of continuity
                                    for complex long-term CIPs, such as this Project. In 2006,

5
    Level II normally provides signature authority for acquisitions up to $5 million.


                                                        11
                             for example, CNMI elected a new administration, and the
                             Project’s contracting officer and contracting officer’s
                             technical representative (COTR), both political appointees,
                             subsequently resigned. Political appointments may also
                             result in the selection of individuals who may not be the best
                             qualified for the position. Both the contracting officer and
                             COTR positions are critical in developing a strong
                             contracting office and ideally should be filled by individuals
                             who have permanent status and meet requirements
                             comparable to their federal counterparts. In addition, the
                             contracting officer should be assisted by an experienced cost-
                             price analyst and other key advisors, as illustrated in
                             Figure 7.


                                         Contracting Officer

                                    ¾ Ensures Government                                      Legal Counsel*
                                      obtains value in contracts.                         ¾ Advises contracting
                                    ¾ Ensures compliance with                               officer on contracting
                                      contract terms.                                       matters.
                                    ¾ Safeguards Government’s                             ¾ Reviews solicitations
                                      interest.                                             and awards for legal
                                                                                            sufficiency.
            COTR*
    ¾ Conducts analysis                                              Project Manager
      of contractor’s                                               ¾ Oversees and
      technical proposal.                                             monitors entire
    ¾ Monitors technical                                              project to ensure
      aspect of contracts.                                            contract
                                           Cost-Price                 deliverables are
                                           Analyst                    met.
                                   ¾ Conducts analysis of
                                     contractor’s price
                                     proposal using price
                                     and cost analysis
                                     techniques.



*Provided, as needed, from departmental offices.


                                                              Key Advisors to Contracting Officer
                                                                                        Figure 7

                             Although CNMI has launched initiatives to improve CIP
                             management in the past, these initiatives were not enough.
                             Like its federal counterparts, CNMI needs top-level
                             commitment to develop a contracting office with highly
                             skilled contracting professionals, capable of effectively
                             managing large-scale CIPs if CNMI is to fulfill development
                             goals and maintain financial support for infrastructure
                             improvements.




                                                   12
Recommendations

            We recommend that the Governor of the Commonwealth of
            the Northern Mariana Islands:

               1. Develop a contracting office with highly skilled
                  professionals, along the lines of federal requirements,
                  who are capable of effectively managing large-scale
                  CIPs.

               2. Use the Federal Acquisition Regulation as the
                  framework to identify best practices and the general
                  framework for revising A&E contracts.

               3. Direct contracting officials to comply with existing
                  grant and procurement regulations, specifically, to:

                      ¾ Use full and open competition to the fullest
                        extent possible.

                      ¾ Develop and use IGEs as a baseline for
                        negotiating a fair and reasonable price for
                        goods and services and ensuring contractors
                        clearly understand contract requirements.

                      ¾ Document the contract and modification price
                        reasonability determination.

                      ¾ Select the best qualified contractor by
                        ensuring the evaluation team is 1)
                        knowledgeable and qualified, 2) provided
                        written evaluation instructions, and 3) under
                        the supervision of an experienced contracting
                        officer.

                      ¾ Allocate costs to projects based on benefits
                        received.

                      ¾ Safeguard proprietary information.

               4. Establish and maintain a CNMI-wide contractor
                  performance evaluation database to assist with the
                  evaluation process and document and take appropriate
                  corrective actions for contractor nonperformance.



                           13
               In his March 6, 2007 response to our draft report
Governor’s     (Appendix 4), the Governor concurred with
Response and   Recommendations 1, 2, and 3 and directed the Office of the
               Attorney General, in conjunction with the Secretary of
OIG Reply
               Finance, to take the lead in implementing the
               recommendations within 120 days. The Governor stated that
               “full compliance will be contingent on the availability of
               funding required to establish the contracting official
               position,” but also stated that preliminary discussions with
               the Office of Insular Affairs “has indicated willingness to
               provide the necessary funding.” Based on the response, we
               consider these recommendations to be resolved but not
               implemented and will follow up with the Office of Attorney
               General after the 120-day implementation time frame.

               The Governor’s response did not address Recommendation 4.
               As such, we request that the Governor respond to the
               recommendation and provide the information requested in
               Appendix 5.




                              14
Appendix 1
Objective, Scope, and Methodology

              Our objective was to evaluate CNMI’s management of the
              Project and identify opportunities for improved performance
              and results. Because of significant management deficiencies,
              we also evaluated OIA’s oversight of the Project. We
              conducted the on-site (fieldwork) portion of our evaluation
              from November 2005 through March 2006. Our evaluation
              was conducted in accordance with the January 2005, Quality
              Standards for Inspections, issued by the President’s Council
              on Integrity and Efficiency. To accomplish our objective,
              we:

               Reviewed CNMI procurement regulations, public laws,
                grant documents, contract documents, financial and
                progress reports, Corps’ reports, and the Summit report.

               Interviewed CNMI officials, staff, and contractors.

               Reviewed the Department of the Interior’s Fiscal Year
                2005 Performance and Accountability Report, including
                information required by the Federal Manager’s Financial
                Integrity Act. The Department reported the need to
                increase economic self-sufficiency for insular areas and
                address persistent management problems in these
                programs.

               Reviewed internal controls and identified weaknesses
                relating to Project management and identified
                opportunities for improved performance and results.

              We did not evaluate the Project’s initial A&E firm’s
              compliance with contract terms because the Corps, under
              contract with CNMI, had conducted a comprehensive
              evaluation of the Project design that included coverage of this
              area. We also did not evaluate the claims filed by Project
              construction contractors because Summit, under contract with
              CNMI, had reviewed these claims. CNMI is currently using
              the Summit report in negotiations with Project contractors to
              settle the claims.

              During the past 5 years, neither OIG nor the Government
              Accountability Office has issued any procurement reports on
              the CNMI Government. However, a 2003 OIG report on the


                             15
                                Commonwealth Ports Authority’s Saipan Harbor Project6
                                identified significant weaknesses in project management.
                                Specifically, the Authority (1) did not adequately analyze or
                                justify contract change orders and incurred contract cost
                                overruns totaling $6.9 million, (2) entered into a
                                noncompetitive contract for construction management
                                services, and (3) improperly used liquidated damages of
                                $980,000 from the Saipan Harbor Project for a project on
                                Rota.

                                A 2003 OIG report to the Office of Insular Affairs on grant
                                administration7 addressed the need for improved monitoring
                                of grants to insular areas. In addition, the following reviews
                                conducted by other entities are relevant to the Project:

                                 U.S. Army Corps of Engineers, Honolulu District:
                                  Review of the Operation and Management of the Capital
                                  Improvement Program for the Commonwealth of the
                                  Northern Mariana Islands, March 2003. The report
                                  identified significant shortcomings that hindered efficient
                                  and effective management of projects. These
                                  shortcomings included (1) lack of a dedicated project
                                  team, (2) absence of a contractor performance evaluation
                                  database, and (3) conflicting procurement regulations.

                                 U.S. Army Corps of Engineers, Honolulu Engineer
                                  District: Evaluation of the Design of the Public Health
                                  Building, Saipan, Commonwealth of the Northern
                                  Mariana Islands, August 2005. The report identified
                                  serious deficiencies in A&E contracting procedures for
                                  the Project. It also identified the need for a strong
                                  contracting office.

                                 Summit Consulting International: CNMI Public Health
                                  Center – Change Order Audit and Analysis, June 2005.
                                  The report provided the results of Summit’s analysis of
                                  the $855,535 in delay claims submitted by AIC and its
                                  subcontractor for alleged Project design delays,
                                  disruptions, and changes. Summit questioned $588,313
                                  of the claimed amount.



6
  OIG: Commonwealth Ports Authority - Saipan Harbor Improvement Project, Report No. 2003-I-0073,
September 2003.
7
  OIG: Report on Grants Administered by the Office of Insular Affairs, Report No. 2003-I-0071, September
2003.


                                                  16
Appendix 2
Monetary Impact


                     Finding Areas           Questioned
                                               Costs

         Installation of Air Conditioning     $ 503,151

         SSFM Deduction for                     45,000
         Nonperformance

         Allocation of Project Management      103,680
         Contract Costs

         Construction Delay Claim               588,313

             Total                           $1,240,144




                                        17
Appendix 3
Project Offices, Organizations, and
Responsibilities



      OIA                                            CNMI Government
  Headquarters
                                                                                                                 Summit
                                                        Secretary, DPW                                            $45,000
   OIA Field Office,                                   CIP Contracting Officer                                   Consultant
        CNMI                           DPW Technical Services Division Director                          Analyze Project Delay Claims
   Field Representative                                      CIP COTR
            &
   Systems Accountant

                                                              Azuma
                                                              $172,800
                                                           Project Manager



                          Leo A. Daly Company                                Taniguchi Ruth Architects
                                 $787,000                                             $953,900
                              A&E Contractor                                        A&E Contractor
                            Design Initial Project                                 Re-design Project



                                                               SSFM
                                                              $453,200
                                                    Project Construction Manager
                                   ¾   Monitor and inspect project construction.
                                   ¾   Prepare IGE.
                                   ¾   Analyze contractor change order proposal and recommend
                                       approval or disapproval.
                                   ¾   Review contractor request for progress payment and
                                       recommend approval or disapproval.




                                                                AIC
                                                             $12,517,000
                                                      Project General Contractor




                                                          18
Appendix 4
CNMI Government Response




                    19
Appendix 5
Status of Recommendations


 Recommendations       Status            Action Required

     1, 2, and 3       Resolved      We will follow up with the
                   Not Implemented   Office of the Attorney
                                     General after the 120-day
                                     implementation time frame.



         4           Unresolved      If you concur with the
                                     recommendation, please
                                     provide a plan of action that
                                     includes target dates and
                                     the titles of the officials
                                     responsible for
                                     implementing corrective
                                     action.

                                     If you do not concur, please
                                     state the reason for
                                     nonconcurrence and
                                     provide a plan of action that
                                     includes alternative
                                     corrective action and target
                                     dates for addressing the
                                     underlying deficiencies.




                           20
